2311 Douglas Street
Omaha, Nebraska 68102-1214

E-Mail Address:

contact@cocklelegalbriefs.com

C@OQCKLE

Legal Briefs

Est. 1923
1-800-225-6964 Web Site
(402) 342-2831 www.cocklelegalbriefs.com
Fax: (402) 342-4850
No.
ANMARIE CALGARO,
Petitioner,

VS.

ST. LOUIS COUNTY, LINNEA MIRSCH, INDIVIDUALLY AND IN HER OFFICIAL
CAPACITY AS INTERIM DIRECTOR OF ST. LOUIS COUNTY PUBLIC HEALTH
AND HUMAN SERVICES, FAIRVIEW HEALTH SERVICES, A MINNESOTA
NONPROFIT CORPORATION, PARK NICOLLET HEALTH SERVICES, A
NONPROFIT CORPORATION, ST. LOUIS COUNTY SCHOOL DISTRICT,
MICHAEL JOHNSON, INDIVIDUALLY AND IN HIS OFFICIAL CAPACITY
AS PRINCIPAL OF THE CHERRY SCHOOL, ST. LOUIS
COUNTY SCHOOL DISTRICT, AND E.J.K.,

Respondents.

CERTIFICATE OF COMPLIANCE
As required by Supreme Court Rule 33.1(h), I certify that the PETITION FOR A WRIT OF
CERTIORARI in the above entitled case complies with the typeface requirement of Supreme Court
Rule 33.1(b), being prepared in New Century Schoolbook 12 point for the text and 10 point for the
footnotes, and this brief contains 8790 words, excluding the parts that are exempted by Supreme
Court Rule 33.1(d), as needed.

Subscribed and sworn to before me this 24th day of July, 2019.
I am duly authorized under the laws of the State of Nebraska to administer oaths.

PATRICIA BILLOTTE

General Notary . \
State of Nebraska : Le Qudraw- ,
My Commission Expires Nov 24, 2020

Notary Public Affiant

 

 

38233
